TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Office of Appeals Needs to Improve the
                 Monitoring of Its Campus Operations Quality



                                           May 10, 2007

                              Reference Number: 2007-10-071




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 10, 2007


 MEMORANDUM FOR CHIEF, APPEALS

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Office of Appeals Needs to Improve the
                              Monitoring of Its Campus Operations Quality (Audit # 200510038)

 This report presents the results of our evaluation of the quality and effectiveness of the Office of
 Appeals (Appeals) centralized campus1 operations. During Fiscal Years 2004 and 2005, Appeals
 centralized certain types of case work at the Internal Revenue Service (IRS) campuses to reduce
 the processing time of taxpayers’ appeals, enhance customer satisfaction, and improve the
 quality of work performed by Appeals.

 Impact on the Taxpayer
 Appeals does not have a statistically valid method of monitoring and reporting on the quality of
 work performed within the specific campus locations. We determined campus personnel did not
 always follow correct procedures or make correct determinations on taxpayer appeals, which
 could result in increased taxpayer burden, reduction of taxpayer rights and entitlements,
 reduction of taxpayer privacy and security, and lost revenue to the Federal Government. In
 addition, without an effective monitoring process, these types of errors may not be detected and
 could continue to occur.




 1
  The data processing arm of the Internal Revenue Service. The campuses process paper and electronic submissions,
 correct errors, and forward data to the Computing Centers for analysis and posting to the taxpayer accounts.
                  The Office of Appeals Needs to Improve the Monitoring of Its
                                  Campus Operations Quality




Synopsis
The centralization of certain types of cases into the campus operations is a major Appeals
strategy for improving service to taxpayers. Appeals uses several tools to assess quality
including customer satisfaction surveys, operational reviews, cycle time analysis, and the
Appeals Quality Measurement System (AQMS). While all of these tools assist Appeals
management in assessing some aspects of quality, the AQMS is the primary tool Appeals
uses to monitor and report on the overall quality of casework. In its Strategic Plan for Fiscal
Year 2006-2009, Appeals reported it would use the AQMS to measure the success of its
strategies to improve quality. However, after the campus centralization, Appeals did not modify
the AQMS to produce a statistically valid evaluation of the quality of casework performed within
specific campuses or specific work streams. Instead, the AQMS sample is based on all Appeals
functions within a geographical area, which includes all cases completed by both the field and
campus operations. As a result, Appeals management may not detect areas needing
improvement within the campuses or determine if its strategy for improving quality was
successful.
Fiscal Year 2005 was the first full year of operations for four of the six centralized campuses.
During this transition year, Appeals implemented significant new initiatives to make the
campuses become fully operational. Some of this activity consisted of hiring and training new
campus employees, team building efforts, revision of policies and procedures to address
deficiencies as they were identified, as well as accelerating efforts to reduce inventory backlogs.
To evaluate the quality of the work performed by the campuses, we reviewed a statistical sample
of cases from the campus operations. Our analysis showed that taxpayers were not always
offered face-to-face hearings as required by procedures, campus employees did not always
follow procedures or make the correct determinations when working taxpayer appeals, and
service was not always timely. Further, taxpayer cases worked at the campus locations
experienced unnecessary delays, taxpayers had not been provided adequate notifications or had
not been properly informed of their rights, some taxpayers may have had unauthorized
third-party contacts on their cases, and some taxpayers had erroneous abatements or refunds
issued, resulting in lost revenue to the Federal Government.

Recommendations
We recommended the Chief, Appeals, revise the methodology used to select statistically valid
samples of cases closed by the campus operations to measure and report on the quality of
casework. The Chief, Appeals, should provide updated guidance and training sessions to ensure
Appeals employees adhere to legal notification requirements for both the requesting and
nonrequesting spouses when processing Innocent Spouse cases; to communicate clarifications of
the penalty abatement policies, as well as emphasize the need for proper case research and

                                                                                                      2
                  The Office of Appeals Needs to Improve the Monitoring of Its
                                  Campus Operations Quality



application of penalty abatement criteria; and to ensure notification and documentation
requirements for contacting third parties are followed. In addition, the Chief, Appeals, should
implement a review process to ensure campus employees make the correct decisions on statute of
limitations claims; adopt consistent language for Uniform Acknowledgment Letters issued for
Innocent Spouse, Non-Docketed, and Offer in Compromise cases to adequately inform the
taxpayer of the opportunity for requesting face-to-face hearings; revise the methods being used
to monitor the aging of Penalty Appeals cases and Innocent Spouse claims; and establish a
timeliness standard for issuing the Uniform Acknowledgment Letters for all Appeals casework.

Response
IRS management agreed with our recommendations. Appeals plans to review the potential
benefits and costs of various sampling options and implement a new approach in
Fiscal Year 2008. Appeals plans to revise and publish Internal Revenue Manual 25.15.12,
“Relief from Joint and Several Liability, Appeals Procedures,” with the procedures for proper
legal notification; revise the Appeals letters used for Innocent Spouse cases and post them on the
Centralized Database and the IRS.gov homepage; update Internal Revenue Manual 8.5.1, “Claim
and Overassessment Cases,” to clarify the procedures for claim cases and the statutory period of
limitations; and conduct a random sample review of refund claim cases involving statute of
limitations to determine if the proper decisions are being made. Further, Appeals plans to adopt
consistent language and revise the Uniform Acknowledgment Letters for Innocent Spouse, Non-
Docketed, and Offer in Compromise cases to ensure the taxpayer has a clear understanding of his
or her options regarding a face-to-face appeals hearing. Appeals stated it will use Centralized
Database real-time data to identify and address potential over-age cases before they become
over-age. Management plans to flowchart the entire process to identify the “statutory suspense
periods” which cannot be altered to determine areas where cycle time can be reduced, and revise
processes and update the Internal Revenue Manual to further reduce cycle time when the analysis
is completed. Appeals also enhanced its Centralized Database to add a new action code to
ensure that the Uniform Acknowledgment Letter is timely issued and established timeliness
standards for issuing the letter in the Internal Revenue Manual. Appeals plans to run a monthly
report to determine if the timeliness standards are being met and send the report for follow-up
when the standard is not being met. Management’s complete response to the draft report is
included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                3
                         The Office of Appeals Needs to Improve the Monitoring of Its
                                         Campus Operations Quality




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Appeals Quality Measurement System Does Not
          Adequately Measure Quality for the Centralized Campus
          Operations .....................................................................................................Page 5
                    Recommendation 1:........................................................Page 7

          Appeals Campus Operations Did Not Always Follow
          Procedures or Make the Correct Determinations..........................................Page 7
                    Recommendation 2:........................................................Page 11

                    Recommendations 3 and 4: ..............................................Page 12

          Appeals Campus Operations Did Not Always Provide
          Timely Service ..............................................................................................Page 12
                    Recommendation 5:........................................................Page 14

                    Recommendation 6:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Types of Cases Worked by the Campuses ............................Page 24
          Appendix VI – Management’s Response to the Draft Report ......................Page 26
       The Office of Appeals Needs to Improve the Monitoring of Its
                       Campus Operations Quality




                     Abbreviations

AQMS             Appeals Quality Measurement System
CDP              Collection Due Process
FY               Fiscal Year
IRS              Internal Revenue Service
OIC              Offer in Compromise
UAL              Uniform Acknowledgement Letter
                     The Office of Appeals Needs to Improve the Monitoring of Its
                                     Campus Operations Quality




                                             Background

The Office of Appeals (Appeals) is an independent function within the Internal Revenue Service
(IRS) whose mission is to settle tax disputes on a fair and impartial basis without litigation.
Before the IRS Restructuring and Reform Act of 1998,1 the majority of Appeals cases involved
hearings for audit and penalty assessments or taxpayers who appealed to the courts (court
docketed cases). The volume of Appeals cases increased significantly after the IRS
Restructuring and Reform Act of 1998 was enacted because it established appeal rights for
Collection Due Process (CDP),2 Offers in Compromise (OIC),3 and Innocent Spouse4 cases.
Appeals performs work at field offices and at campuses5 located throughout the nation. In an
effort to improve customer service, reduce the time taxpayer cases are in process (cycle time),
and address aging inventories in the field offices, Appeals initiated centralized campus
operations during Fiscal Year (FY) 2004 to work certain types of cases at the campuses rather
than the field offices. Prior to that time, Appeals worked most cases at the field office closest to
the taxpayer. FY 2005 was the first full year of operations for four of the six centralized
campuses. During that transition year, Appeals implemented significant new initiatives to make
the campuses become fully operational. Some of this activity consisted of hiring and training
new campus employees, team building efforts, revision of policies and procedures to address
deficiencies as they were identified, as well as accelerating efforts to reduce inventory backlogs.
Appeals management acknowledged the campus centralization has been challenging due to its
complexity and scope, but several initiatives have been undertaken to help identify and improve
the quality and effectiveness of the centralized casework. Some of the methods used by Appeals
consist of specifically focused training sessions, operational reviews that are conducted at the
campus team levels, and the annual Customer Satisfaction Surveys. Appeals management
reported a commitment to monitoring the quality and timeliness of its campus casework and
believes these methods are instrumental in helping the organization monitor and address campus
related issues and concerns.

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Taxpayers may appeal the first time a Federal Tax Lien is filed on a tax period and before the IRS levies against a
taxpayer’s property.
3
  Taxpayers who are unable to pay their tax liability in a lump sum or through an installment agreement may file an
OIC.
4
  By requesting Innocent Spouse relief, a taxpayer may be relieved of responsibility for paying tax, interest, and
penalties if their spouse (or former spouse) improperly reported items or omitted items on a joint tax return.
5
  The data processing arm of the Internal Revenue Service. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to the taxpayer accounts.


                                                                                                             Page 1
                      The Office of Appeals Needs to Improve the Monitoring of Its
                                      Campus Operations Quality



Under campus centralization procedures, Appeals assigns cases to campuses specializing in
particular types of cases. At these campus locations, Appeals works with taxpayers, or their
representatives, via correspondence and telephone contact. If the taxpayer prefers a face-to-face
hearing, it is Appeals’ policy to transfer a case from the campus to the field office closest to the
taxpayer’s location. Appeals identified seven types of cases that could be processed in the
campuses: CDP, OIC, innocent spouse, penalty abatement requests, non-docketed examination,
S-docketed examination, and requests made through the Freedom of Information Act. See
Appendix V for a description of these types of cases.
Appeals typically closes over 100,000 cases per year. As a result of the centralization, the
campuses now work a greater percentage of cases than in the past. During FY 2005, the campus
operations closed 24,439 (24 percent) of 102,597 cases, and during FY 2006, the campus
operations closed 34,257 (33 percent) of 102,559 cases.6
Figure 1 shows receipts by type of case from FY 2002 through FY 2005 for the entire Appeals
operation.
                   Figure 1: Appeals Inventory Received in FYs 2002-2005

                      TYPE OF CASE                  FY 2002 FY 2003 FY 2004 FY 2005
             CDP                                     26,666       31,848       28,133       29,810
             OIC                                      7,392       16,861       16,768       14,934
             Innocent Spouse                          3,660        4,274        4,592         3,341
             Penalties                               12,092       12,561       13,047       13,703
             Coordinated Industry Cases                 542          608           554          552
             Industry Cases                             861          716           683          750
                            7
             Exam/TEGE                               20,309       26,607       30,239       31,536
             Freedom of Information Act                 456          337           236          244
             Other8                                   4,419        4,566        4,425         5,048
             TOTAL                                   76,397       98,378       98,677       99,918
             Source: Appeals Business Performance Reports.



6
  Total cases do not agree with Figure 1 because these numbers represent “closed” cases, while Figure 1 refers to
“received” cases.
7
  Includes Exam Docketed, Non-Docketed, and S-Docketed cases. TEGE represents Tax Exempt and Government
Entities Division customers.
8
  Other includes Abatement of Interest, Collection Appeals, Director of Practice, Other Penalties, and Miscellaneous
cases. Only 12 cases were included in the miscellaneous category for FY 2005.
                                                                                                            Page 2
                     The Office of Appeals Needs to Improve the Monitoring of Its
                                     Campus Operations Quality



Figure 2 shows the types of cases that were moved to the campuses, the campus sites that process
the cases, and dates the cases were centralized at each location.
                            Figure 2: Appeals Centralized Campuses
                                                                            DATE OF
                 TYPE OF CASE                     CAMPUS
                                                                         CENTRALIZATION
                                                   Fresno                     October 2004
             CDP
                                                   Memphis                    September 2005
                                                   Brookhaven                 December 2003
             OIC
                                                   Memphis                    April 2005

             Innocent Spouse                       Covington                  October 2003
                                                   Memphis                    April 2005
             Penalties                             Ogden                      September 2004
                                                   Fresno                     February 2004
             Non-Docketed
             Examination                           Ogden                      {?}9
                                                   Philadelphia10             1988
                                                   Brookhaven                 June 2005
             S-Docketed
             Examination                           Fresno                     February 2004
                                                   Philadelphia11             1988
             Freedom of Information
                                                   Fresno                     February 2004
             Act
             Source: Director, Appeals Tax Policy and Procedure.

Appeals’ campus centralization was done in an attempt to reduce the time cases are in process.
Figure 3 shows the average time to process work by type of case for FY 2002 through June 2006.
The length of time to process a taxpayer’s case from receipt until the final resolution is known as
cycle time.



9
  We cannot determine when the Ogden Campus started working the barred statute disallowed claims from the
Memphis Campus. This is a small part of all Non-Docketed examination cases.
10
   Philadelphia has been working Non-Docketed examination cases that originated there since 1988 and is currently
working only cases that originate there.
11
   Philadelphia has been working S-Docketed cases that originated there since 1988 and is currently working only
cases that originate there.
                                                                                                          Page 3
                   The Office of Appeals Needs to Improve the Monitoring of Its
                                   Campus Operations Quality



                   Figure 3: Appeals’ Case Cycle Time – Calendar Days
                                                                       FY 2006
             TYPE OF CASE              FY 2002 FY 2003 FY 2004 FY 2005 (through
                                                                         June)
       CDP                                 274        253         241         242           246
       OIC                                 331        313         253         239           234
       Innocent Spouse                     384        446         450         425           340
       Penalties                           166        194         166         117           119
       Coordinated Industry Cases          836        793         782         785           847
       Industry Cases                      518        553         549         663           522
       Examination/TEGE                    391        372         333         374           341
       Other                               219        238         245         241           229
       Source: Appeals’ Business Performance Reviews November 12, 2003; May 17, 2006; and
       August 16, 2006.

We initiated a review of six work streams (CDP, OIC, Innocent Spouse, Penalty Abatement
Requests, Examination Non-Docketed cases, and Examination S-Docketed cases) in the campus
locations to determine how case cycle time and the quality of the casework were affected by the
campus centralization.
This review was performed at the National Headquarters of the Office of Appeals, in
Washington, D.C., during the period of January through December 2006. This audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major Contributors to the
report are listed in Appendix II.




                                                                                                  Page 4
                    The Office of Appeals Needs to Improve the Monitoring of Its
                                    Campus Operations Quality




                                   Results of Review

Although Appeals has centralized all seven types of casework to the six campuses, it cannot
determine if its efforts have achieved its goals of “getting the right work to the right employee”
and providing the highest quality of customer service. Appeals uses the Appeals Quality
Measurement System (AQMS) as the primary tool for measuring the quality of its casework.
However, Appeals did not modify the AQMS process to be able to monitor the quality of the
cases worked at the campuses after it centralized its operations. The AQMS currently uses a
sampling methodology that does not allow for statistically valid reporting of results specific to
campus operations or for a specific centralized work stream. As a result, Appeals does not
specifically assess the quality performance for campus operations.
To evaluate the quality and timeliness of casework, we conducted a statistical analysis of six
types of cases worked in the campuses. We found the campus operations did not always follow
Appeals’ procedures, make the correct determination, or complete the cases timely.
Consequently, Appeals needs to take additional steps to ensure the centralization will enable it to
provide efficient and effective service to taxpayers.

The Appeals Quality Measurement System Does Not Adequately
Measure Quality for the Centralized Campus Operations
The centralization of certain types of cases into the campus operations is a major Appeals
strategy for improving service to taxpayers. To address its goal of improving processes and
meeting customer needs, Appeals created a new model to centralize its work into standard teams
that perform specialized work within the campuses. In its Strategic Plan for FY 2006-2009,
Appeals reported it would use the AQMS to measure the success of its strategies to improve
quality. However, Appeals did not adjust the AQMS to produce a statistically valid evaluation
of the quality of casework performed within specific campuses or specific work streams. As a
result, Appeals management may not detect areas needing improvement within the campuses or
determine if its strategy for improving quality was successful. In addition, these types of errors
could continue to occur.
Appeals uses the Appeals Centralized Database System (Centralized Database) to record case
activity and time charged on all closed cases. To assess quality, the AQMS randomly selects a
sample of all Appeals closed cases on the Centralized Database, measures quality based on six
standards,12 and assigns an overall rating for each standard. However, the AQMS sample is

12
  Taxpayer Service and Rights, Quality of Decision, Accuracy of Computations, Appeals Case Memorandum, Time
Span and Time Applied, and Procedural Compliance.
                                                                                                   Page 5
                      The Office of Appeals Needs to Improve the Monitoring of Its
                                      Campus Operations Quality



based on all Appeals functions within a geographical area, which includes all cases completed by
both the field and campus operations. Although the sample includes some cases worked by the
Campuses, Appeals does not select a statistically valid independent sample of the campus and
field operations. As a result, Appeals cannot use the AQMS to accurately assess the quality of
work performed by the Campuses.
The Appeals organization is divided into two geographical field operations (East and West).
Both the East and West operations contain Area Offices13 that consist of campus and field
offices. While the AQMS data may be useful to propose broad corrective action plans based on
the quality reported for an Area Office level, they could be used more effectively if the data were
further detailed to show areas needing improvement at the campus and field level. The broad
measure of quality creates a greater risk that corrective actions could be misdirected at either the
campus or field operations, and an overall acceptable rating for an Area Office level may be the
result of averaging the poor results from one of the operations with better results from the other.
Also, the AQMS does not make valid comparisons between campus operations and field
operations on a current or historical basis. Without specific performance and quality results,
Appeals does not have sufficient detail to determine if centralizing operations reduced the cycle
time while maintaining the quality of its case workload, nor can it identify areas for improvement
specific to the campuses or field operations. Since the AQMS does not provide statistically valid
data on the quality of casework performed at the campuses and combines the results with work
performed by the field operations, Appeals management may not identify errors or accurately
gauge the quality of work performed within the campuses.
Appeals justified its decision to centralize some operations at the campuses based on the
expectation that it would reduce the cycle time to process cases while maintaining the quality.
However, without a mechanism to measure this, Appeals cannot be held accountable for
achieving this goal.
Appeals management believes it would not be cost beneficial to revise the AQMS process to
obtain quality results at the campus level because it would require additional staffing to review
larger sample sizes for the various work streams. However, Appeals has not conducted, and does
not plan to conduct, a cost benefit analysis to support its opinion. Because Appeals reorganized
its work into the campuses, we believe it should have a reliable, statistically accurate process to
evaluate the quality of work done by the campus operations.
Although the AQMS is the primary tool to assess quality, Appeals uses other methods to monitor
quality at the campuses, such as customer satisfaction surveys, cycle time analysis, and
operational reviews. Area and Campus Directors perform operational reviews to identify
training needs and monitor inventory levels and cycle time. Our analysis of the operational


13
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                             Page 6
                  The Office of Appeals Needs to Improve the Monitoring of Its
                                  Campus Operations Quality



reviews found that management can identify many issues specific to campus casework quality
and address them appropriately at the local level. While these methods may provide valuable
information, we believe Appeals needs to modify the AQMS to ensure it has statistically valid
measurements of quality at the campuses.

Recommendation
Recommendation 1: The Chief, Appeals, should revise the methodology used to select
statistically valid samples of cases closed by the campus operations to measure and report on
the quality of casework.
    Management’s Response: IRS management agreed with our recommendation. They
    are considering several options and will conduct further analysis to determine the best
    approach to address the recommendation. Management plans to review the potential
    benefits and costs of various sampling options and implement a new approach in FY 2008.
    An alternative approach would be to keep the same methodology but eliminate the over
    sampling, and use those resources to conduct work stream specific reviews that were
    identified as a potential problem by the preliminary reviews. The third option, to conduct
    statistically valid samples at the work stream level in each campus with comparable field
    data, would cost an estimated $2 million in staff resources. Management agreed to continue
    to supplement the AQMS review with data from operational reviews, data analysis, or other
    tools. They are now reviewing the potential benefits and costs of these various options and
    plan to determine which review approach to implement for FY 2008.

Appeals Campus Operations Did Not Always Follow Procedures or
Make the Correct Determinations
Our review of a statistically valid sample of closed cases from each of the six types of cases
determined that Appeals employees did not always follow policies and procedures or make
correct determinations when processing Appeals cases at the campuses. These actions could
result in increased burden, denial of rights and entitlements, loss of privacy and security for
taxpayers, and loss of revenue for the Federal Government. These conditions would not have
been reported to Appeals management since they were not identified in the annual AQMS
results. Figure 4 summarizes the results of our analysis:




                                                                                            Page 7
                  The Office of Appeals Needs to Improve the Monitoring of Its
                                  Campus Operations Quality



All of the Appeals’ work streams require a Uniform Acknowledgment Letter (UAL), the initial
contact letter, be sent to taxpayers to inform them their cases have been received by Appeals and
the various options for a hearing. The purpose of the UAL is to introduce the taxpayer to
Appeals and the hearing process. We reviewed the UALs sent for all of the campus operations
work streams to determine what information was provided to taxpayers regarding the option for
having a face-to-face hearing.
The UAL sent by the CDP campus operations contained specific language informing the
taxpayer of the option to request a face-to-face hearing. However, the letters used for OIC
rejection, Innocent Spouse claim, Non-Docketed, S-Docketed, and Penalty Appeals hearing
requests in FY 2005 stated, “We conduct our reviews by: (1) telephone, (2) mail, and/or
(3) personal interviews.” In our opinion, this statement does not explicitly inform the taxpayer
of the option to request a face-to-face hearing.
In August 2006, the UALs for the S-Docketed and Penalty Appeals work streams were revised to
include specific language explaining the taxpayer’s options, including a face-to-face hearing, if
desired. However, the UALs for the Non-Docketed, Innocent Spouse, and OIC work streams
had not been revised. We could not determine why Appeals was inconsistent in how it informed
taxpayers of the option for face-to-face hearings between the various work streams. During
FY 2005, Appeals closed 1,338 Non-Docketed cases, 1,519 Innocent Spouse cases, and
5,146 OIC cases. We estimate that 8,003 (100 percent) of these cases involved UALs that did
not contain specific wording explaining the taxpayer’s option to request a face-to-face hearing,
which may have resulted in taxpayers being denied rights or entitlements.

Recommendations
Recommendation 2: The Chief, Appeals, should provide updated guidance and training
sessions to:
   •   Ensure Appeals employees adhere to legal notification requirements for both the
       requesting and nonrequesting spouses when processing Innocent Spouse cases.
   •   Communicate clarifications of the penalty abatement policies, as well as emphasize the
       need for proper case research and application of penalty abatement criteria.
   •   Ensure notification and documentation requirements for contacting third parties are
       followed.
    Management’s Response: IRS management agreed with our recommendation and
    plans to revise and publish Internal Revenue Manual 25.15.12, “Relief from Joint and
    Several Liability, Appeals Procedures,” with the procedures for proper legal notification.
    Management also plans to revise the Appeals letters used for Innocent Spouse cases and
    post them on the Centralized Database and the IRS.gov homepage. Management will also
    communicate clarifications of the penalty abatement policies as well as emphasize the need
                                                                                          Page 11
                    The Office of Appeals Needs to Improve the Monitoring of Its
                                    Campus Operations Quality



     for proper case research and application of penalty abatement criteria. The policies and
     procedures relating to penalty abatement were updated in September 2006, and Appeals will
     further clarify them in the cross-functional Internal Revenue Manual 20.1. Management
     plans to update Internal Revenue Manual 8.7.2 to clarify notification and documentation
     requirements for contacting third parties.
Recommendation 3: The Chief, Appeals, should implement a process to review claims
involving statute of limitations to confirm that decisions made by Appeals employees are correct.
     Management’s Response: IRS management agreed with our recommendation and
     plans to update Internal Revenue Manual 8.5.1, “Claim and Overassessment Cases,” to
     clarify the procedures for claim cases and the statutory period of limitations. Management
     also plans to conduct a random sample review of refund claim cases involving statute of
     limitations to determine if the proper decisions are being made.
Recommendation 4: The Chief, Appeals, should adopt consistent language in the UAL for
Innocent Spouse, Non-Docketed, and OIC cases to explicitly inform the taxpayer he or she may
request a face-to-face hearing when certain conditions are met.
     Management’s Response: IRS management agreed with our recommendation.
     Management plans to adopt consistent language and revise the UALs for Innocent Spouse,
     Non-Docketed, and OIC cases to ensure the taxpayer has a clear understanding of his or her
     options regarding a face-to-face appeals hearing.

Appeals Campus Operations Did Not Always Provide Timely Service
Timely service is important to taxpayers. Based on an Appeals Customer Satisfaction Survey,20
taxpayers felt the Appeals process was too lengthy and they were not updated about the status of
their cases. The National Taxpayer Advocate also expressed concerns about the lengthy time
period to complete the Appeals process. In the National Taxpayer Advocate 2004 Annual Report
to Congress, the National Taxpayer Advocate reported that unreasonable delays during the
Appeals process can limit taxpayer access to Appeals and potentially compromise Appeals’
independence.
We identified excessive delays that ranged from 1 to 13 months in acknowledging taxpayers’
appeals and providing final responses to taxpayers. Figure 5 summarizes the results of our
review of timeliness:




20
   Internal Revenue Service Customer Satisfaction Survey, Appeals National Report, April through September 2005
issued February 2006.
                                                                                                      Page 12
                        The Office of Appeals Needs to Improve the Monitoring of Its
                                        Campus Operations Quality



         Figure 5: Delays in Acknowledging and Processing Taxpayers’ Appeals
                                      in FY 2005
                                                                                                            Total
                                      Number                    Length      Untimely       Percent
        Type of         Type of                     Sample                                                Estimated
                                         of                       of        Actions in     Untimely
         Error           Case                        Size                                                 Untimely
                                      Closures                  Delay        Sample        Actions
                                                                                                           Actions
                                                                 1-3
       Untimely           CDP           1,962          56                       6              11%                 210
                                                              months
        Initial
       Response                                                 1-10
                         OIC          5,146         55                         23              42%               2,152
                                                              months
                        Penalty                                  6-8
        Untimely                     11,615         54                          5               9%               1,076
                       Appeals                                months
         Final
                       Innocent                                  7-13
        Response                      1,519         52         months           7              13%                20421
                        Spouse
     Source: Treasury Inspector General for Tax Administration review of a statistically valid sample of cases closed
     by Appeals campuses in FY 2005.

Taxpayers did not receive timely acknowledgment of their appeal requests in CDP
and OIC cases
More than 40 percent of the work closed by the campuses involves collection type cases such as
CDP and OIC. The Appeals CDP procedures require that the employee assigned to work the
taxpayer’s case send a UAL within 1 month. Although Appeals contacts taxpayers by sending
the UAL, it is not always timely or the case may not be worked expediently.
We found significant delays, ranging from 1 to 3 months, after case assignment for issuing UALs
for 6 (11 percent) of 56 sampled CDP cases. Appeals management advised us that UALs were
not issued timely because the employees initially assigned the cases were focused on case-related
research, preparing the cases for quick closeout, or forwarding the cases to a hearing officer for
final resolution. Delays beyond 1 month to acknowledge the taxpayer’s hearing request are
excessive and may cause the taxpayer to contact the IRS to inquire about the status of their CDP
request. While Appeals conducts quality reviews through its AQMS, the issue of untimely
UALs sent by the campuses was not identified because the AQMS does not report results based
on specific campus performance. We estimate that, potentially, 210 taxpayers were burdened
because the UALs were not issued timely.
When the IRS rejects a taxpayer’s OIC, the taxpayer may appeal. Unlike the procedures for
CDP cases, Appeals’ procedures do not specify the time period in which the UAL must be sent
to taxpayers for OIC cases. In 23 (42 percent) of 55 sampled cases, Appeals employees took
from 1 to 10 months to send the UAL. Appeals explained that some of the delays were
attributable to reassignment or transferring of the cases during that time period. In our opinion,

21
     The numbers in this column cannot be computed due to rounding.
                                                                                                             Page 13
                  The Office of Appeals Needs to Improve the Monitoring of Its
                                  Campus Operations Quality



delays beyond 1 month to acknowledge the taxpayer’s appeal are unreasonable and could
increase taxpayer frustration with the Appeals process as well as cause undue taxpayer burden.
During that elapsed time, the taxpayer’s financial condition could change, which could affect the
feasibility of the OIC. We estimate approximately 2,152 taxpayers who requested an appeal of
their OICs may have experienced excessive delays because the UALs were not timely issued.
Since the AQMS data analysis does not report results based on specific campus performance,
Appeals management was not aware of this condition and had not taken action to correct it.

There were excessive delays in processing Penalty Appeals cases and Innocent
Spouse claims
Appeals’ policies and procedures do not contain specific time periods for processing Penalty
Appeals cases and Innocent Spouse claims. However, we noted the procedures require that
“every effort should be made to resolve penalty appeal cases as expeditiously as possible, given
the complexity of the issues and workload constraints.”
Our analysis of Penalty Appeals cases and Innocent Spouse claims identified long periods of
inactivity. In 5 (9 percent) of 54 sampled cases in which taxpayers requested abatement of
penalties, Appeals took between 6 and 8 months to contact taxpayers during the Appeals process.
Appeals management was not monitoring the aging of assigned cases adequately to ensure there
were not excessive periods of inactivity. During FY 2005, we estimate 1,076 taxpayers may
have had unexplained delays exceeding 6 months during the Penalty Appeals process for cases
closed by Appeals campus operations.
In 7 (13 percent) of 52 sampled Innocent Spouse claims, taxpayers experienced delays during the
Appeals process ranging from 7 to 13 months. Appeals told us this situation occurred because
some cases were assigned to employees who were working higher priority cases and were not
immediately available. In addition, some employees assigned these cases were working
developmental assignments or were in training. Appeals agreed that better monitoring of the
aging of these cases would help to identify cases that should be reassigned or transferred to other
employees. We estimate 204 taxpayers whose Innocent Spouse claims were closed during
FY 2005 may have experienced unnecessary delays exceeding 7 months.

Recommendations
Recommendation 5: The Chief, Appeals, should revise the methods being used to monitor
the aging of Penalty Appeals cases and Innocent Spouse claims so that long periods of inactivity
are promptly identified and addressed to ensure cases are worked timely.
    Management’s Response: IRS management agreed with our recommendation and
    plans to use Centralized Database real-time data to identify and address potential over-age
    cases before they become over-age. Management stated they will also flowchart the entire
    process to identify the “statutory suspense periods” which cannot be altered and then

                                                                                           Page 14
                 The Office of Appeals Needs to Improve the Monitoring of Its
                                 Campus Operations Quality



    determine areas where cycle time can be reduced. Management will also revise the
    processes and update the Internal Revenue Manual to further reduce cycle time when the
    analysis is completed.
Recommendation 6: The Chief, Appeals, should establish a timeliness standard for issuing
the UALs for all Appeals case work. Further, this standard should be monitored on the
Centralized Database to ensure policies and procedures are being followed and the letters are
timely issued.
    Management’s Response: IRS management agreed with our recommendation and on
    August 23, 2006, enhanced the Centralized Database to add a new action code, CO-UAL, to
    the Case Activity Record, which is a system-generated action code that is automatically
    input when the first UAL is generated. On October 5, 2006, management established a
    timeliness standard for issuing UALs in the Internal Revenue Manual. The Internal
    Revenue Manual provides that the Appeals Team Manager must make every attempt to
    generate and issue the UAL in the shortest time possible, but no later than 30 days from
    when the case is received in Appeals. On February 22, 2007, management enhanced the
    Centralized Database to automatically populate the “ACKLTR” field so Appeals can
    monitor whether UALs were properly and timely generated. The Appeals Team Manager
    must prepare the letter using the Centralized Database Forms Generator, and then the
    current date is recorded in the”ACDLTR” field on the Centralized Database to show the
    date the letter was generated. A report will be run monthly to determine if timeliness
    standards are being met and the report will be sent to the field for follow-up action where it
    is not met.




                                                                                          Page 15
                    The Office of Appeals Needs to Improve the Monitoring of Its
                                    Campus Operations Quality




                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this audit was to evaluate the quality and effectiveness of Appeals centralized
campus1 operations. To accomplish our objective, we:
I.      Obtained a computer extract of all closed campus cases between October 2004 and
        September 2005 from the Centralized Database file maintained at the Treasury Inspector
        General for Tax Administration Data Center Warehouse. We validated the reliability of
        the computer extract using table descriptions from the Data Center Warehouse, reviewed
        appropriateness of data within fields requested, and compared population totals to
        information obtained from Appeals officials.
II.     Selected statistically valid random samples from each of six separate work streams. The
        total sample was 376 cases and was selected based on a confidence level of 90 percent,
        precision rate of 6.5 percent, expected error rate of 10 percent, and included an additional
        10 percent random selection to help account for lost or unobtainable cases. The samples
        were obtained from the total population of 24,153 cases closed from 6 work streams by
        campus operations in FY 2005.
III.    Obtained and reviewed case files for each sample for the six work streams for three
        attributes we determined were quality indicators. The following attributes were
        evaluated:
        A. Case file documentation sufficiently supported the determination.
        B. Written correspondence or phone conversations with the taxpayer were adequate
           before a determination was made on a case.
        C. Appeals offered and, if necessary, allowed taxpayers the option of a face-to-face
           hearing with field operations.
IV.     Discussed with Appeals officials (national/area/local managers and analysts) policies at
        the centralized campus operations that affected the quality of taxpayer hearings. This
        included:
        A. Identifying the policies related to written correspondence or phone conversations
           with taxpayers before determinations; using the updated contact letter; and offering



1
 The data processing arm of the Internal Revenue Service. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to the taxpayer accounts.
                                                                                                       Page 16
               The Office of Appeals Needs to Improve the Monitoring of Its
                               Campus Operations Quality



        face-to-face hearings and, if necessary, allowing taxpayers the option of a
        face-to-face hearing with field operations.
     B. Interviewing Appeals team managers about their policies and procedures related to
        how a request is handled when a taxpayer requests a face-to-face hearing.
     C. Confirming case review exceptions from Step III. and discussing the causes.
V.   Determined how centralized campus case quality is monitored by Appeals and whether
     the level of oversight is appropriate to provide useful feedback for conditions found.
     A. Evaluated the AQMS review process for the extent of the quality analysis related to
        centralized campus operations. This included the method of selecting samples, case
        rating standards, results or feedback provided to various management levels, and if
        any conditions or recommendations are monitored.
     B. Obtained the recent AQMS quality report to determine if it had been adapted to
        reflect quality specifically related to the centralized campus operations. We discussed
        any plans to revise the report for centralized campus operations with Appeals
        officials.
     C. Discussed with Appeals officials (national/area/local managers and analysts) any
        quality reviews, which were in addition to the AQMS, in place at centralized campus
        operations and the results of these reviews.




                                                                                       Page 17
                 The Office of Appeals Needs to Improve the Monitoring of Its
                                 Campus Operations Quality




                                                                              Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business & Corporate Programs)
Michael E. McKenney, Assistant Inspector General for Audit (Wage & Investment Income
Programs)
Carl L. Aley, Director
Janice M. Pryor, Audit Manager
Yasmin B. Ryan, Lead Auditor
Aaron R. Foote, Senior Auditor
Kenneth E. Henderson, Senior Auditor
Mark A. Judson, Senior Auditor
Daniel M. Quinn, Senior Auditor




                                                                                      Page 18
                The Office of Appeals Needs to Improve the Monitoring of Its
                                Campus Operations Quality




                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP




                                                                        Page 19
                  The Office of Appeals Needs to Improve the Monitoring of Its
                                  Campus Operations Quality




                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:
   •   Taxpayer Rights and Entitlements – Potential; 701 taxpayers may have had their rights
       violated because they did not receive proper notification from Appeals on Innocent
       Spouse cases (see page 7).

Methodology Used to Measure the Reported Benefit:
   In 24 (46.15 percent) of 52 sampled Innocent Spouse case reviews, taxpayers did not receive
   the required notification as the requesting or nonrequesting spouse. Appeals campus groups
   closed a total of 1,519 Innocent Spouse appeals cases in FY 2005. We estimate that,
   potentially, 701 (1,519 population x 46.15 percent error rate) of those cases may not have
   provided the proper notifications to the requesting or nonrequesting spouse. Our reviews of
   52 randomly selected Innocent Spouse cases for this attribute resulted in a 46.15 percent
   actual error rate and a + 11.18 percent precision rate based on a 90 percent confidence level.

Type and Value of Outcome Measure:
   •   Protection of Revenue – Actual; $83,736 was not collected due to inappropriate
       abatements of post assessment penalties for 17 taxpayers (see page 7).
   •   Protection of Revenue – Potential; 3,656 Penalty Appeals cases may have inappropriate
       abatements of post assessment penalties resulting in potential lost revenue during
       FY 2005 (see page 7).

Methodology Used to Measure the Reported Benefit:
   Penalties were erroneously abated in 17 (31.48 percent) of 54 post assessment penalty cases
   closed by campus Appeals. The IRS could have protected assessments totaling $83,736 for
   these 17 cases if policies and procedures were followed, adequate research was conducted,
   and proper training had been provided for proper penalty abatement. Appeals campus groups
   closed a total of 11,615 post assessment penalty appeals during FY 2005. We estimate that
   3,656 (11,615 population x 31.48 percent error rate) of those cases could have erroneous
   penalty abatements. Our reviews of 54 randomly sampled cases for this attribute resulted in
                                                                                          Page 20
                The Office of Appeals Needs to Improve the Monitoring of Its
                                Campus Operations Quality



  a 31.48 percent actual error rate and a + 10.37 percent precision rate based on a 90 percent
  confidence level.
  Since our sample was based on a review of quality attributes, we did not project the potential
  dollars of revenue protected for the population of campus Penalty Appeals cases.

Type and Value of Outcome Measure:
  •   Taxpayer Privacy and Security – Potential; 70 taxpayers may have had their privacy and
      security violated by unauthorized disclosures of taxpayer return information (see page 7).

Methodology Used to Measure the Reported Benefit:
  In 2 (3.57 percent) of the 56 sampled CDP cases, Appeals made unauthorized third-party
  contacts. As a result, there is the potential that there may have been unauthorized disclosures
  of taxpayer returns or return information to unauthorized third parties. We estimate that,
  potentially, 70 taxpayers (1,962 population x 3.57 percent error rate) had their privacy and
  security violated by inappropriate third-party contacts which could have resulted in
  unauthorized disclosures of return information. Our reviews of 56 randomly selected
  samples of CDP campus closures for this attribute resulted in an actual error rate of
  3.57 percent and a + 4.02 percent precision rate based on a 90 percent confidence level.

Type and Value of Outcome Measure:
  •   Protection of Revenue – Actual; $24,355 was erroneously refunded due to inappropriate
      allowances of claims which were barred by the statute of limitations (see page 7).
  •   Protection of Revenue – Potential; 76 accounts with erroneous refunds that were barred
      by the statute of limitations (see page 7).

Methodology Used to Measure the Reported Benefit:
  In 3 (5.66 percent) of the 53 sampled Non-Docketed campus cases, there were erroneous
  refunds that were barred from refund by the statute of limitations. These 3 cases resulted in
  the issuance of $24,355 in erroneous refunds. Appeals campus groups closed a total of
  1,338 Non-Docketed cases during FY 2005. We estimate that 76 (1,338 population x
  5.66 percent error rate) accounts contained erroneous refunds. Our reviews of 53 randomly
  selected Non-Docketed cases for this attribute resulted in an actual error rate of 5.66 percent
  and a + 5.12 percent precision rate based on a 90 percent confidence level.
  Since our sample was based on a review of quality attributes, we did not project the potential
  dollars of revenue protected to the population of campus Non-Docketed cases.



                                                                                          Page 21
                 The Office of Appeals Needs to Improve the Monitoring of Its
                                 Campus Operations Quality



Type and Value of Outcome Measure:
  •   Taxpayer Rights and Entitlements – Potential; 8,003 taxpayers may have had their rights
      violated due to the lack of adequate notification of the right to a face-to-face hearing (see
      page 7).

Methodology Used to Measure the Reported Benefit:
  The UALs used in FY 2005 for the Non-Docketed, Innocent Spouse, and OIC work streams
  did not contain adequate language informing taxpayers of the option to request a face-to-face
  hearing in a local Appeals office. Appeals campus groups closed 1,338 Non-Docketed cases,
  1,519 Innocent Spouse cases, and 5,146 OIC cases for a total of 8,003 taxpayers who were
  potentially denied their rights because of the inadequate UALs.

Type and Value of Outcome Measure:
  •   Taxpayer Burden – Potential; 210 taxpayers may have experienced excessive delays in
      the issuance of the UALs for CDP cases (see page 12).

Methodology Used to Measure the Reported Benefit:
  In 6 (10.71 percent) of the 56 sampled CDP cases, taxpayers experienced excessive delays
  in issuance of the UALs. As a result, the taxpayers may have been unnecessarily burdened
  by not timely knowing the status of their Appeals requests. Appeals campus groups closed
  a total of 1,962 CDP cases in FY 2005. We estimate that, potentially, 210 taxpayers
  (1,962 population x 10.71 percent error rate) were burdened when the UALs were not timely
  issued. Our reviews of 56 randomly selected samples of CDP campus closures for this
  attribute resulted in an actual error rate of 10.71 percent and a + 6.7 percent precision rate
  based on a 90 percent confidence level.

Type and Value of Outcome Measure:
  •   Taxpayer Burden – Potential; 2,152 taxpayers who requested an appeal of their OICs
      may have experienced excessive delays because their UALs were not timely issued (see
      page 12).

Methodology Used to Measure the Reported Benefit:
  In 23 (41.82 percent) of the 55 sampled OIC case closures, Appeals did not timely issue
  UALs to the taxpayers. Appeals campus groups closed a total of 5,146 OIC cases in
  FY 2005. We estimate that 2,152 (5,146 population x 41.82 percent error rate) of those cases
  did not have UALs timely issued. Our reviews of 55 randomly selected OIC campus
  closures for this attribute resulted in a 41.82 percent actual error rate and a + 10.88 percent
  precision rate based on a 90 percent confidence level.

                                                                                           Page 22
                The Office of Appeals Needs to Improve the Monitoring of Its
                                Campus Operations Quality



Type and Value of Outcome Measure:
  •   Taxpayer Burden –Potential; 1,076 taxpayers who requested post assessment Penalty
      Appeals may have been burdened by unexplained delays exceeding 6 months during the
      Appeals process (see page 12).

Methodology Used to Measure the Reported Benefit:
  In 5 (9.26 percent) of 54 sampled post assessment Penalty Appeals case reviews, timely
  contact was not made with the taxpayer during the Appeals process after the initial
  acknowledgment letter was sent. Appeals campus groups closed a total of 11,615 post
  assessment Penalty Appeals during FY 2005. We estimate 1,076 (11,615 population x
  9.26 percent error rate) of those cases could have resulted in burden to taxpayers due to the
  unnecessary delays. Our reviews of 54 randomly sampled post assessment Penalty Appeals
  cases for this attribute resulted in a 9.26 percent actual error rate and a + 6.47 percent
  precision rate based on a 90 percent confidence level.

Type and Value of Outcome Measure:
  •   Taxpayer Burden – Potential; 204 taxpayers involved in Innocent Spouse cases may have
      been burdened by unnecessary delays exceeding 7 months during the Appeals process in
      obtaining a final case resolution (see page 12).

Methodology Used to Measure the Reported Benefit:
  In 7 (13.46 percent) of 52 sampled Innocent Spouse case reviews, taxpayers may have
  been burdened by unnecessary delays exceeding 7 months during the Appeals process in
  receiving a final case resolution from Appeals. Appeals campus groups closed a total of
  1,519 Innocent Spouse appeals cases in FY 2005. We estimate 204 (1,519 population x
  13.46 percent error rate) taxpayers could have been burdened by unnecessary delays. Our
  reviews of 52 randomly selected Innocent Spouse cases for this attribute resulted in a
  13.46 percent actual error rate and a + 7.65 percent precision rate based on a 90 percent
  confidence level.




                                                                                        Page 23
                      The Office of Appeals Needs to Improve the Monitoring of Its
                                      Campus Operations Quality




                                                                                                    Appendix V


             Types of Cases Worked by the Campuses

    •    CDP: The IRS is required to notify taxpayers in writing that a lien1 has been filed or that
         it intends to levy.2 A taxpayer is allowed to appeal a lien or levy action through the CDP
         by filing a hearing request.
    •    OIC: An OIC is an agreement between a taxpayer and the IRS that resolves the
         taxpayer’s tax debt. The IRS has the authority to settle, or “compromise,” Federal tax
         liabilities by accepting less than full payment under certain circumstances. When the IRS
         rejects a taxpayer’s OIC, the taxpayer may appeal.
    •    Innocent Spouse: A husband and wife are generally liable jointly and individually for the
         entire tax on a joint return. The IRS may collect the entire amount of tax, penalties, and
         interest due on a joint return from either spouse. However, the IRS Restructuring and
         Reform Act of 1998 made substantial changes to the tax law by including provisions to
         allow expanded relief for married taxpayers from the burden of tax liability. Taxpayers
         who have requested relief and disagree with the IRS’ decision may file a Statement of
         Disagreement (Form 12509)3 and elect to forward the claim to Appeals or file a petition
         with the Tax Court.
    •    Penalty Abatement Requests: Penalties are effective tools used by the IRS to encourage
         voluntary tax compliance. The IRS may request payment from a taxpayer for some types
         of penalties before the taxpayer has an opportunity to dispute the penalties. These are
         considered post assessment penalties.4 Taxpayers who disagree with these post
         assessment penalties can choose to protest the penalty through an appeal.
    •    Non-Docketed Examination: Non-Docketed examination cases are those in which the
         taxpayer has not filed a petition in the United States Tax Court. If the IRS identifies a
         deficiency on a taxpayer’s return, the IRS will send the taxpayer a letter, accompanied by


1
  When initial contacts by the IRS do not result in the successful collection of unpaid tax, the IRS has the authority
to attach a claim, commonly referred to as a lien, to the taxpayer’s assets.
2
  The IRS has the authority to work directly with financial institutions and other parties to obtain funds owed by a
taxpayer. This process is commonly referred to as a levy.
3
  This form is used to explain why taxpayers disagree with the IRS determination concerning relief from joint
and several liability for a joint return under Internal Revenue Code (I.R.C.) sections (§§)6015(b), 6015(c), or
6015(f) (2007).
4
  Post assessment penalties include the failure to pay tax penalty and the failure to file penalty under I.R.C. § 6651
(2007).
                                                                                                              Page 24
                     The Office of Appeals Needs to Improve the Monitoring of Its
                                     Campus Operations Quality



        the Revenue Agent’s Report, which gives the taxpayer 30 days to request an Appeals
        conference. If the taxpayer does not request an Appeals conference, then the IRS will
        send the taxpayer a Notice of Deficiency. If the taxpayer files a petition with the Tax
        Court and has not had an Appeals conference, the IRS will send the case to Appeals to
        investigate a possible settlement.
    •   S-Docketed Examination: These are examination audit assessments under $50,000 that
        have been petitioned to the Tax Court.
    •   Freedom of Information Act:5 Whenever a Freedom of Information Act request is
        denied, the requester has the right to appeal the denial. A requester may appeal the
        withholding of a document, the denial of a fee waiver request, the type or amount of fees
        that were charged, or any other type of adverse determination under the Freedom of
        Information Act. A requester can also appeal because the IRS failed to conduct an
        adequate search for the documents that were requested. However, a requester may not
        file an administrative appeal for the lack of a timely response.




5
 5 U.S.C.A. § 552 (West Supp. 2003). This Act provides public access to agency records unless protected from
disclosure by one of the Freedom of Information Act’s nine exemptions or three exclusions.
                                                                                                       Page 25
     The Office of Appeals Needs to Improve the Monitoring of Its
                     Campus Operations Quality




                                                      Appendix VI


Management’s Response to the Draft Report




                                                             Page 26
The Office of Appeals Needs to Improve the Monitoring of Its
                Campus Operations Quality




                                                        Page 27
The Office of Appeals Needs to Improve the Monitoring of Its
                Campus Operations Quality




                                                        Page 28
The Office of Appeals Needs to Improve the Monitoring of Its
                Campus Operations Quality




                                                        Page 29
The Office of Appeals Needs to Improve the Monitoring of Its
                Campus Operations Quality




                                                        Page 30
The Office of Appeals Needs to Improve the Monitoring of Its
                Campus Operations Quality




                                                        Page 31
The Office of Appeals Needs to Improve the Monitoring of Its
                Campus Operations Quality




                                                        Page 32
The Office of Appeals Needs to Improve the Monitoring of Its
                Campus Operations Quality




                                                        Page 33
